<html>
<title> - MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART III</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





   MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART III

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2014

                               __________

                           Serial No. 113-111

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-090 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 9, 2014......................................     1

                               WITNESSES

The Hon. Eleanor Holmes Norton, A Delegate in Congress from the 
  District of Columbia
    Oral Statement...............................................     8
    Written Statement............................................    11
Mr. Peter Newsham, Assistant Chief, Metropolitan Police 
  Department
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Robert D. MacLean, Acting Chief, U.S. Park Police
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. David A. O'Neil, Acting Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice
    Oral Statement...............................................    21
    Written Statement............................................    23
Ms. Seema Sadanandan, Program Director, American Civil Liberties 
  Union of the Nations Capital
    Oral Statement...............................................    26
    Written Statement............................................    28

                                APPENDIX

List of penalties for marijuana possession and list of law 
  enforcement in D.C, submitted by Chairman Mica.................    62

 
   MIXED SIGNALS: THE ADMINISTRATION'S POLICY ON MARIJUANA, PART III

                              ----------                              


                          Friday, May 9, 2014

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:09 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Turner, and Massie.
    Also Present: Representatives Fleming, Jordan, Cohen, and 
Norton.
    Staff Present: Melissa Beaumont, Assistant Clerk; Will L. 
Boyington, Deputy Press Secretary; Molly Boyl, Deputy General 
Counsel and Parliamentarian; David Brewer, Senior Counsel; Drew 
Colliatie, Professional Staff Member; John Cuaderes, Deputy 
Staff Director; Christopher D'Angelo, Staff Assistant; Howard 
A. Denis, Senior Counsel; Adam P. Fromm, Director of Member 
Services and Committee Operations; Linda Good, Chief Clerk; 
Tyler Grimm, Senior Professional Staff Member; Christopher 
Hixon, Chief Counsel, Oversight; Michael R. Kiko, Legislative 
Assistant; Mark D. Marin, Deputy Staff Director of Oversight; 
Emily Martin, Counsel; James Robertson, Senior Professional 
Staff Member; Katy Rother, Counsel; Laura Rush, Deputy Chief 
Clerk; Andrew Shult, Deputy Digital Director; Peter Warren, 
Legislative Policy Director; Courtney Cochran, Minority Press 
Secretary; Adam Koshkin, Minority Research Assistant; Katy 
Teleky, Minority Staff Assistant; and Cecelia Thomas, Minority 
Counsel.
    Mr. Mica. Good morning, I'd like to welcome everyone and 
call to order this Subcommittee on Government Operations. It is 
one of the key subcommittees of the House Oversight and Reform 
Committee. The title of today's hearing is Mixed Signals, the 
Administration's Policy on Marijuana, and this is the third in 
a series of hearings that we have been conducting in the 
subcommittee to look at some of the changes in the law, and 
also some of the practices that we're seeing across the country 
in regards to the use and enforcement of law relating to 
marijuana.
    The order of business is we will start with some opening 
statements, myself and other members that wish to be 
recognized. When we finish with that, well, we have two panels 
is this morning, and we have the delegate from the District, 
Ms. Norton, who we'll hear from first, and then we have a panel 
of four witnesses that we will hear from in the second panel.
    We gather today, and I will start out by saying with an 
opening statement in fulfilling an important responsibility of 
the Congress, and that is the investigative and oversight role 
of this committee. We are sent here by the people, not only to 
legislate on some matters, but also to conduct the most 
important investigative and oversight role in the House of 
Representatives, and this is a longstanding committee. I'm 
pleased to be the senior member having served here longer than 
anyone else, I think, on the committee, but it does fulfill an 
important role in, again, keeping government accountable and 
responsible.
    As today's hearing relates to the District of Columbia, I 
know there have been some public pronouncements about what is 
the committee doing looking at the District's law. Let me just 
start out by saying, first of all, the District of Columbia is 
not a State. It's not a territory. It's not a possession. In 
fact, it is a Federal District. It's provided for under the 
Constitution in a specific statute. And let me just say that 
the law that we are talking about will impact, and that the 
District has passed, will impact not only the people of the 
District, but the people of the United States, and we have 
millions and millions of people visiting us each year. It is a 
law that is in conflict with some Federal laws, and I think we 
have an important responsibility to review its implications.
    Am I singling out the District of Columbia for examination 
of the impact of changes in marijuana laws? Absolutely not. And 
we have held two previous hearings in which we specifically 
looked at the impact in Colorado, which has gone beyond the 
statute in the District; and we're looking at other States, 
too. More than 20 States have authorized and changed the legal 
framework of marijuana for medical use; and so this is, again, 
directed to our responsibility under the Constitution and laws, 
a particularly unique responsibility of the Congress over and 
in response to its responsibility over the District of 
Columbia.
    So, again, on March 4, we did a hearing with a Colorado 
U.S. attorney, and we had found out actually on that date, and 
I think that's the date that the D.C. Council voted to 
decriminalize the possession of marijuana. The impact is 
significant. More than 20 percent--can we put that little slide 
up here--more than 20 percent of D.C. Is Federal land, and it 
is, in fact, unclear as to how the D.C. Criminalization will 
affect marijuana possession and consumption on Federal land 
like the Mall. I'm color blind, but they tell me that the green 
you see, there's a great deal of territory that, in fact, is 
Federal land. I asked the question of staff what if I'm 
standing on the Mall which adjoins, I guess its Independence 
Avenue with one foot on each, this side of the roadway there, 
what the impact of enforcement would be, and no one could tell 
me.
    There are many questions that have been raised by the 
District's adoption of a bill that reduces the penalty for 
marijuana possession from a criminal offense punishable by jail 
time to a civil offense punishable by a $25 fine. And, again, 
it is in conflict with some of the Federal statutes.
    Currently, we have marijuana as a Schedule 1 narcotic. 
Currently we have different levels of enforcement and penalty 
for its use on Federal property of which you can see we have a 
great deal in the District of Columbia. So that's one of the 
reasons we're here.
    Again, I've had some people, including our witness, 
question our authority. Let me just review the authority under 
the Constitution of the United States. Do you want to bring 
that up? Article 1, Section 8, it's very evident to exercise 
the exclusive legislation in all cases whatsoever over the 
District, and our authority, in this regard, stems from the 
Constitution.
    As you know, the District was created by an act of Congress 
in 1790, and subsequently we have a 1973 law. Do you want to 
put that up. Home Rule Act of 1973, and it says the Congress of 
the United States reserves the right at any time, and this is 
one of those times, to exercise its Constitutional authority as 
legislature for the District. So we do have very clear 
authority in that regard.
    And then we are here in the House Oversight Government and 
Reform Committee that dates back to the early 1800s because the 
Congress wanted not only the authorizers to conduct oversight 
and the appropriators, those who created agencies or the 
District of Columbia, but also who appropriated, they wanted 
them to conduct oversight, but they wanted a third party, and 
we happen to be that third party, the House of Representatives 
Committee on Oversight and Government Reform, and clearly the 
laws, Rule 10 Clause 1, point out that this is our 
responsibility. So with that, we will fill our Constitutional 
and statutory responsibility and conduct this hearing.
    I'm not here to debate the merits or demerits of the 
criminal law. We're here to examine its impact. We're here to 
examine the enforcement questions. We're here to examine a host 
of questions. This is not the last hearing. We started out with 
the Deputy Director of the White House Policy on Drugs, and he 
testified to a number of items in conflict with statements we 
have heard from the President, in fact, even from the President 
of the United States about, again, the impact of the current 
marijuana that we see in the marketplace, its physical impact, 
also its impact on the performance and even intelligence of 
individuals again, sat at this table and told us some reasons 
why we should not lessen penalties and why we should, again, 
look at what's being done around the United States, much in 
conflict with some agencies of the administration who are now 
in turmoil trying to figure out how they comply with changes 
in, albeit the District of Columbia or Colorado or some 20 
States laws that have been passed.
    In fact, with many local and Federal law enforcement 
agencies, and I'd ask the staff, have we got a list of the--in 
the District of Columbia we have this pretty extensive list of 
enforcement agencies in the District, starting with the United 
States Capitol Police, the United States Secret Service, 
Supreme Court Police, the United States Park Police. Even the 
Smithsonian have police. We have a whole host here of agencies 
that are charged with enforcing the law within the District of 
Columbia and also have different sets of penalties that they 
must enforce that may be in conflict with the law that has been 
proposed by the District for the District.
    So, again, we have issues that relate not only to the 
District but to law enforcement with other multiple agencies 
within the District of Columbia and that have a legitimate law 
enforcement role in the District.
    So, again, we are here to look at some of these issues, to 
explore the implications of this new law's impact on the 
District, millions of people who will visit here, and we hope 
to do so in a responsible manner. Whether or not we will make 
any further recommendation, I'm not going to prejudge. We 
haven't heard all the testimony. I invited the District to also 
send a representative from the District council, and I think 
they chose not to do that. I'm disappointed that they are not 
sending someone who actually adopted the policy, but we do want 
to provide an opportunity for the representative of the 
District, Ms. Norton, to testify and have her position stated 
on the record as we'll do in just a minute.
    Are there further members that would seek recognition? Mr. 
Cohen.
    Mr. Cohen. Thank you, Mr. Chair. I just want to thank you 
for holding this hearing and for having the hearings you've 
previously had. I think that the statements in the previous 
hearing of the drug czar's representatives and the DEA Deputy 
Director that came here spoke for themselves, and they speak 
for the need for the President to replace those people and have 
people in positions that reflect the values of America in 2014, 
and the values that President Obama has espoused, and the 
values that the people have espoused in voting in States 
throughout this country where 21 States have medical marijuana 
and two have recreational marijuana.
    This particular case, one of the things that I really liked 
about the States adopting this is Louis Brandeis, my favorite 
Supreme Court Justice, said that States are the laboratories of 
democracy, and that's the wonderful thing, and then there were 
48. The States could try things. The others could learn and see 
what's good and what's bad. D.C., while not a State, is a 
separate jurisdiction and can be a laboratory of democracy just 
as Brandeis envisioned, and no better laboratory of democracy 
than right here where the Members of the House of 
Representatives are situated to where they can see and be 
around and experience in their homes and their home area, 
second home area, how this law affects the populace. It has a 
disparate impact upon African Americans, 8-1 in arrests, and it 
has a big effect on the D.C. Budget and incarcerations and 
police time. It takes away from other priorities that could be 
people spending on human issues that need to be addressed. I'm 
sure Delegate Norton who does such a wonderful job representing 
the District will bring these issues up, but I am a strong 
supporter of D.C.'s having the autonomy to address the issues 
as they did by a 10-1 vote and appreciate the opportunity to 
discuss these issues in this forum.
    Thank you, Mr. Mica.
    Mr. Mica. Thank you. And I should have asked for unanimous 
consent, since you're not on this specific committee or 
subcommittee, to participate; and without objection, we have 
granted you the ability to participate.
    At this time, I also want to ask unanimous consent that our 
colleague from Louisiana, Dr. Fleming, be allowed to also 
participate in the hearing; and without objection, so ordered.
    So let me recognize further members of the subcommittee 
first. Mr. Massie, did you want to be heard? Okay. Mr. Jordan? 
Okay. Then we'll go to Dr. Fleming. Welcome, and you're 
recognized.
    Mr. Fleming. Well, I want to thank you, Mr. Chairman, today 
for allowing me to sit in on this and other members of this 
committee. I'd like to speak for a moment not so much 
specifically about the law and the advisability of relaxing 
laws on marijuana, but just to speak as a physician and as a 
father, a family physician who's been a alcohol and drug 
medical director twice, someone who wrote a book about 
preventing addiction in children back in 2007, and what the 
impact of marijuana is today in America and also changing 
attitudes.
    You know, it was back about 20 years ago, I believe, that 
there was identified some theoretical value of the use of 
marijuana medicinally in the case of dying cancer patients. It 
gave them some comfort, and, of course, no one has any problem 
with attending to the needs of a dying patient, someone with a 
terminal illness.
    Somehow this has morphed, though, into claims that 
marijuana actually cures cancer, that it is necessary to treat 
nausea, and many other claims that have been completely 
disputed by the medical community. There is nothing that 
marijuana treats today that can't be provided by other 
medications that are much safer.
    Now, let's talk about the safety of marijuana. Marijuana is 
an addicting substance. Again, there's a myth out there that 
it's not. The most common diagnosis for young people admitted 
to rehab centers today is for marijuana addiction. Make no 
mistake about it. Now, there's also discussion about marijuana 
is a gateway drug, and I'll tell you what drug addicts tell me, 
and that is that every addicting substance is a gateway drug to 
another addicting substance. Marijuana is not excluded. I would 
even include alcohol and perhaps tobacco in that category.
    So any exposure of an addicting substance oftentimes leads 
to worse addictions. What else do we know science? We have 
learned, we have many studies now that confirm this, that the 
human brain does not fully mature until almost age 30. Yet the 
average age of a child who has first exposure to alcohol, 
tobacco, or marijuana, is around 11. And what we have learned 
is that these drugs, these addicting substances, actually 
modify the brain and its chemical pathways, the biochemical 
pathways and the neurotransmitters, and sets the stage for 
addiction later in life. In fact, children who are exposed to 
such addicting substances prior to age 15 have a five times 
greater risk of future addiction than those who are not. So 
there's no question that the rate of addiction goes up with 
exposure in young people.
    Two very recent studies have come out that have important 
impact that came out just this month. One is being published in 
Neuroscience where they did MRI scans of people who used 
marijuana only once or twice a week. And what they found was 
profound changes in two aspects of the brain, areas that 
confirm what we have believed all along, and that is something 
called Amotivational Syndrome that occurs in regular marijuana 
users.
    Also, the incidence of psychiatric diseases, particularly 
schizophrenia, is higher among chronic users. Heart disease, 
we're seeing a spike in heart disease among marijuana users as 
well. Now, there's also a Libertarian argument on this that why 
should government stand in the way of people utilizing a 
substance if they wish to do so? And theoretically, that makes 
plenty of sense, but the problem is you never hear libertarians 
make the claim that when I'm unable to get or keep a job and I 
can no longer support my family, that I will also tell the 
government not to take care of us through our growing 
entitlement system. So, again I would always challenge those 
who argue on a Libertarian basis, you can't have it both ways. 
If you can do whatever you want with your body, that is, ride a 
motorcycle without a helmet or whatever, don't expect society 
and taxpayers to take care of you when you're suffering from 
those circumstances.
    So, again, I want to be sure that we have the facts in 
front of us. We're getting reports now in States like Colorado 
where marijuana has recently been made legal, where children in 
the fourth grade are now dealing the drug. It's finding its way 
into food, and now we have a spike in poisonings in emergency 
rooms where children have actually ingested marijuana and 
become quite ill.
    So these are all important things I want to be sure we have 
out on the table, Mr. Chairman. And, once again, I thank you 
for the opportunity to join everyone today, and I yield back.
    The Chairman. Thank you. Do you other members wish to make 
opening statements. Mr. Massie?
    Mr. Massie. With all due respect, I just want to clarify 
the Libertarian position is not to have the government take 
care of you if bad luck befalls you or you make poor decisions.
    Mr. Fleming. Would the gentleman yield on that?
    Mr. Massie. Absolutely.
    Mr. Fleming. I would agree that should be the Libertarian, 
but I interact with people every day on this subject because of 
my stance on it; and I can tell you, and I would actually say 
that there's kind of a faux Libertarian group out there who 
make the claim on the basis you say, but they never come with 
the second part.
    So I agree with you, if you were to take a libertarian 
stance on this, if I were to choose myself for instance, to 
ride a motorcycle without a helmet, or to use marijuana and 
tell the government to stay out of my life, then like you, we 
should also demand that government not provide us benefits to 
the charge of taxpayers to take care of us when that happens. 
So we agree philosophically. I'm just saying there are many who 
make the claim under the umbrella of Libertarianism, and it's 
not Libertarianism at all, as you well state.
    Mr. Massie. Yeah, I agree.
    Mr. Fleming. Thank you.
    Mr. Cohen. Mr. Chair, can I ask a question of my 
colleagues?
    The Chairman. Well, Mr. Massie had time. Did you wish to 
yield to Mr. Cohen?
    Mr. Massie. I will yield time.
    Mr. Cohen. I just wonder with your argument, Doctor, should 
we outlaw alcohol so we don't have to pay for the alcoholics 
who can't get a job and who we have to pay for for 
rehabilitation and for DWIs and for assaults and murders when 
they're drunk and those types of things? Should we get rid of 
alcohol?
    Mr. Fleming. Would the gentleman yield?
    Mr. Cohen. I yield.
    Mr. Fleming. I'd be happy to respond. Great question. You 
know, alcohol has been an accepted part of our culture and even 
our religious practices for centuries. We did try even with an 
amendment to the Constitution to prohibit the use of it, and it 
just was not culturally accepted. It is very problematic, but I 
would also say that on a medical basis, that moderate amounts 
of ingestion of alcohol actually have positive health effects. 
That is, again, not to diminish what it can do. There's no 
question that it too can damage the brain, the liver and many 
other organs, but that it's not realistic given the cultural 
acceptance of alcohol to prohibit it.
    The same is true of tobacco. We used it for 400 years 
without realizing that it was a problem. And, in fact, as 
recently as the 1950s, doctors actually recommended smoking, at 
least on commercials, for health, and we found out, or course, 
in 1969 when the Surgeon General came out and said that it 
causes lung cancer and many other problems. But we have done a 
lot of things to mitigate the use of it and the damage of it. 
But marijuana is different. The public has never accepted 
marijuana as a part of our culture. I know that that seems to 
be changing, but I think we can turn it back in time to prevent 
that from inculcating itself into our culture and damaging more 
young people and ultimately causing severe health care problems 
later in life.
    Mr. Massie. I'll yield back my time so as not to derail 
this committee meeting.
    Mr. Mica. I thank the gentleman. And as you can see, 
there's a lot of debate, not only among various groups, but 
among Members of Congress from both sides of the aisle and 
within the parties themselves. And what's happening is raising 
many questions across the United States, both the change in the 
law in the District. But it does have implications. I'm going 
to yield to Ms. Norton in just a second. I do want to provide 
at this point in the proceedings, the penalties for marijuana 
possession starting with Federal Law 21 U.S.C. Code, Section 
844, which has simple possession that can provide for 1 year of 
imprisonment or a fine of not less than $1,000. That's the 
Federal law. The new D.C. Law is $25 penalty, civil penalty. 
Federal Parkland penalties, in fact, are a fine or jail term up 
to 6 months. There are 26 agencies that are responsible for law 
enforcement.
    Now, I have this joint here--okay. Don't get too excited 
out there, some of you. This is not a real one. It's a mock 
one, but I am told by staff that this joint, Ms. Norton, that 
the penalty is, let's see, you have up to 1 ounce or less. 1 
ounce is 28 grams. Is that correct? And each joint has about 1 
gram, so over 20 joints you could be in possession of in the 
District of Columbia. Here is the list of penalties which I'm 
submitting to the record. I can't submit this. This as I said 
is a faux joint. But for the record, I will submit this list.
    Mr. Cohen. Did you roll that?
    Mr. Mica. No, I had staff do it. They have more experience. 
But all kidding aside, there are very serious implications, Ms. 
Norton, to the step the District has taken. We want an open, 
honest airing of what's going to happen, how this is going to 
be enforced, and the implications. And that's why we brought in 
Federal and District and other officials to discuss this in an 
open an honest manner. With that, I welcome our delegate, and 
recognize her.

  STATEMENT OF THE HON. ELEANOR HOLMES NORTON, A DELEGATE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. I want to thank you very much, Chairman Mica 
for the opportunity to testify, and I just want to say that 
under the Attorney General's policy, I think you are safe with 
that joint because the policy is not to enforce marijuana laws 
here in the District of Columbia, and I think even in the 
Capitol.
    Mr. Chairman, before I say a few words and summarize my 
testimony, I do have to say I think it's almost quaint to hear 
a jurisdiction of 650,000 American citizens referred to as a 
Federal District. Not since the 1973 Home Rule Act when 
Congress realized it was wrong to have a Nation's Capitol where 
people could not govern themselves, that people refer to my 
district as a Federal district. I, of course, recognize that 
the Congress kept unto itself ultimate power over the Nation's 
Capitol while granting the citizens of this city the right to 
govern themselves and to make their own local laws in the same 
way as the members of the panel in their local jurisdictions, 
have those laws made.
    Mr. Chairman, notwithstanding that ultimate power, I do 
note with great pleasure that this full committee on which I 
serve has, in fact, respected home rule. This is the first time 
that I can remember that there has been a hearing in Congress 
on a purely local matter, notwithstanding the power of Congress 
over the District of Columbia. It simply has the good sense and 
fails to violate its own principles of local control most of 
the time by almost always not interceding into our local 
affairs as American citizens.
    As to the 20 percent of the District of Columbia that is 
Federal land, Mr. Chairman, six or seven States in the United 
States have most of their land to be Federal land. And yet we 
do not claim, this committee does not claim that that presents 
any particular problem when it comes to the enforcement of 
local laws which may differ from Federal laws.
    As to the location of a number of police forces here, Mr. 
Chairman, they will be enforcing Federal law under the Attorney 
General's memorandum, which means that they will not interfere 
with local law in the District of Columbia as it has been 
passed with respect to marijuana decriminalization.
    Mr. Chairman, though I appreciate the opportunity to 
testify here this morning, I must say I come as much in protest 
as in the normal, the usual sense of testimony because the 
subcommittee has singled out the District of Columbia on its 
marijuana decriminalization law as it has not singled out any 
of the other 18 jurisdictions who have similar laws. In fact, 
the subcommittee in two prior hearings has gone out of its way, 
although it was investigating exactly what it is investigating 
here, the conflict between Federal and local law, to observe 
it's often cited adherence to the Tenth Amendment by not 
calling any local officials, even when it looked at Colorado in 
particular, which along with Washington, of course, has gone 
much further in decriminalization but has legalized marijuana.
    Still, no local official was called to Washington to be 
cross-examined, as it were, by the national legislature about 
what that local official was doing in its local jurisdiction. 
That, too, Mr. Chairman, is at the root of our Constitution. 
The ultimate authority of the District of Columbia came because 
Congress devolved that authority in 1973 in its landmark law, 
except for a few enumerated exceptions and plainly, marijuana 
decriminalization was not among them.
    Mr. Chairman, almost 40 years ago, the first State 
decriminalized marijuana. That was Alaska. Since then red and 
blue States alike have decriminalized marijuana from California 
to New York, from Mississippi to Nebraska. Nothing, nothing is 
similar about these States except they have taken this 
particular step in keeping with what their local residents 
desired. Yet the District of Columbia is the only jurisdiction 
that has gotten a full-fledged hearing on its local 
decriminalization law. Nothing distinguishes the District of 
Columbia's decriminalization law from those 18 States, except 
the illegitimate power of the national government to do what 
would make the Framers turn over in their graves, and that is 
to overturn the laws of locally elected officials in their own 
jurisdiction, in contravention of every American principle of 
local control of local affairs.
    This hearing stands out because it does not--it flies in 
the face of what my Republican colleagues often preach about 
devolving power back to local States and jurisdictions. This 
hearing does just the opposite, tries to snatch power by making 
the District of Columbia vindicate its local power and its 
local policy before the State legislature.
    I just want to go on the record to say we will defend this 
city's marijuana decriminalization bill against any and every 
attempt to block it or to change it. There will be as a 
courtesy, a city police department official here today, but the 
mayor of the District of Columbia has informed me that he 
objects to this hearing, and he has refused to provide, as has 
the Council, any official who has had anything to do or will 
have anything to do with devising or carrying out the marijuana 
decriminalization law in the District of Columbia.
    I am also pleased to note that two majority members of this 
subcommittee, Representatives Justin Amash and Thomas Massie, 
carried out the principle of local control of local affairs by 
last week voting for the Blumenauer amendment to prohibit local 
funds being used to implement the veterans health 
administrative directive that forbids a VA provider from 
completing forms seeking recommendations or options regarding a 
veteran's participation in a State marijuana program.
    Mr. Chairman, it took me 11 years to remove a marijuana, a 
medical marijuana amendment from the District's appropriation. 
Now, today 21 States have medical marijuana.
    Mr. Chairman, the most important reason I am here today is 
to make it clear to the committee what really propelled the 
District to pass its own decriminalization law. Even though 
blacks and whites in the United States use marijuana at the 
same rate, a recent study showed that African Americans in our 
country are four times more likely, are almost four times more 
likely, to be arrested for mere possession.
    Mr. Chairman, it was interesting to note that in your own 
State of Florida you have, you are number three in the nation 
for marijuana possession arrests, and blacks in Florida are 
arrested for marijuana possession at a rate four times that of 
whites. But here, even in the progressive, District of Columbia 
where half of the population is black, we found an even worse 
record, that African Americans were eight times more likely to 
be arrested for mere possession than whites in our city, and 91 
percent of all marijuana arrests were of African Americans. 
These arrest rates are extremely troubling because in our city, 
and across the country, they have ruined the lives of African 
Americans, especially young African American men who start in 
life surrounded by a host of stereotypes, regardless of who 
they are or where they live, just because they are black. A 
marijuana possession arrest, particularly for these young men 
from low income areas, will almost surely wipe out the 
opportunity to find a legitimate job. That, in turn, can lead 
to the underground economy, even selling drugs. Who is paying 
that price, Mr. Chairman? It is the black community itself.
    Mr. Mica. I would like, if you could, to conclude. Now 
we're 6-1/2 minutes over what we allot. But I would also like 
to invite the gentlelady to come up and join the panel, and 
you'll have time here both to ask questions and submit 
additional information for the record.
    Ms. Norton. Mr. Chairman, I do want to say, particularly 
given the concern, I will simply lead with the rest of my 
testimony, but the concern that a member has indicated about 
the use of marijuana himself. That is a very legitimate 
concern, and he can be assured that the District of Columbia, a 
big city which has experienced real drug problems, usually 
heroin and cocaine, very, very clear about the problem of 
people smoking marijuana, has gone out of its way to make sure 
that decriminalization does not lead to more smoking of 
marijuana. In fact, ironically, I think decriminalization is 
going to start up, for the first time, an understanding of the 
risks that may be associated with smoking marijuana, whereas we 
haven't heard much about those until decriminalization took 
hold. In a free society, of course, Mr. Chairman, we must 
respect the liberty of Americans to use such substances. Rather 
than simply punishing use, the District of Columbia has a 
substance abuse prevention and treatment fund which will be 
used, it will be engaged in preventative actions.
    Mr. Chairman, I'm asking that the city, in any further 
action within this committee, not be unfairly targeted and that 
the members of this committee give the people who live in the 
District of Columbia the same respect for their local decisions 
as they would certainly demand for their own constituents and 
jurisdiction.
    [Prepared statement of Ms. Norton follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Mica. I thank the gentlelady, and we also welcome her 
to the panel and appreciate her testimony. We are going to go 
ahead and have the second panel seated. And if we could go 
ahead and do that, Ms. Norton, if you'd join us here, we had 
appreciate it.
    I'd just say while they're doing that, let me put a 
unanimous consent request in the record, and this relates to 
marijuana, Federal marijuana prosecutions. In August of 2013, 
the Department of Justice issued a memo stating that the 
Department of Justice will not enforce marijuana laws in States 
that have legalized it and maintained a robust regulatory 
scheme. However, the Department of Justice listed eight 
priority areas for which they intend to focus marijuana-related 
prosecutions. One of those eight areas, ``preventing marijuana 
possession or use on Federal property'' is one of those 
exceptions.
    Under these policies it seems the Federal District Court 
would prosecute marijuana possession on Federal land. This is 
contrary to what we just heard, and that's one of the reasons. 
No one is here to negate the District law. We are looking at 
the implications and the enforcement regime with 26 Federal 
agencies responsible for enforcing different penalties. So with 
that, do we have all of our witnesses, if they'd step forward.
    We have Mr. Peter Newsham is the Assistant Chief of 
Metropolitan Police. We have Robert D. MacLean is the acting 
chief of the United States Park Service; we have Mr. David 
O'Neil is the acting Assistant Attorney General of the Criminal 
Division at the U.S. Department of Justice; and we have, our 
fourth witness is Ms. Seema, Sadanandan, Director of the 
American Civil Liberties Union of the National Capitol.
    If you could remain standing, we do swear in all of our 
witnesses. If you would raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    Let the record reflect that all of the witnesses answered 
in the affirmative. Please be seated. We try to get you to 
limit your testimony to 5 minutes. We'll be glad through a 
request of the chair to add to the record additional 
information, data or testimony that you would like made part of 
the record and welcome you.
    Mr. Mica. Let's start out and we'll start with Peter 
Newsham who is the Assistant Chief of Metropolitan Police. 
Welcome, sir, and you're recognized.
    If you could turn that up, and I'm only a lowly 
congressman.

                       WITNESS STATEMENTS

                   STATEMENT OF PETER NEWSHAM

    Mr. Newsham. Good morning, Chairman Mica, other members of 
the committee, and members of the public. I am Peter Newsham, 
Assistant Chief of the District of Columbia Metropolitan Police 
Department. I'm pleased to be here today to discuss the 
District of Columbia's recent legislation to decriminalize 
small amounts of marijuana. The Marijuana Possession 
Decriminalization Amendment Act of 2014, D.C. Act 20-305, which 
is projected to become effective law in approximately mid-July, 
amends the District of Columbia's criminal code to 
decriminalize the possession of 1 ounce or less of marijuana. 
Instead of facing a misdemeanor charge punishable by up to 6 
months in jail, up to $1,000 fine or both, once the act goes 
into effect, individuals will be subject to a $25 civil fine. 
The Metropolitan Police Department officers can seize any 
visible marijuana.
    The use of marijuana on public space will remain a criminal 
penalty punishable by up to 60 days in jail or a fine of up to 
$500. The act defines public space as any street, alley, 
sidewalk, park, or parking area. A vehicle on any street, 
alley, park or parking area, and any place to which the public 
is invited.
    Public attitudes about marijuana use have changed 
significantly in recent years with many accepting it to be no 
more harmful or addictive than alcohol or tobacco. 
Decriminalizing marijuana may help reduce the number of people 
with arrest records for possession of small amounts of 
marijuana which may enable them to more easily find gainful 
employment. The act maintains criminal penalties for selling 
marijuana and public usage of marijuana, which is important to 
combat drug dealing and to ensure neighborhoods' quality of 
life.
    Even though the District of Columbia will decriminalize 
possession of small amounts of marijuana, we will continue to 
send the message, especially to our young people, of 
marijuana's danger and effects, just as we do with alcohol and 
tobacco, to discourage them from using it. Due to the 
District's unique status, some Federal law enforcement agencies 
such as the U.S. Park Police, have concurrent jurisdiction in 
the District of Columbia and can enforce District or Federal 
law anywhere in the city. Although MPD officers will enforce 
the act, the local act, Federal law enforcement agencies are 
not bound by the act so long as the possession or use of 
marijuana remains a Federal criminal offense.
    I thank you again for the opportunity to appear before you 
today. I'd be happy to answer any questions you have.
    Mr. Mica. Thank you, and we'll hold the questions to the 
end.
    [Prepared statement of Mr. Newsham follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Mica. Let's now hear from and recognize Robert MacLean, 
and he's the acting chief of the United States Park Police. And 
you're recognized.


                  STATEMENT OF ROBERT MACLEAN

    Mr. MacLean. Thank you, sir. Chairman Mica and members of 
the committee, thank you for the invitation to appear before 
you today to discuss the Federal Government's response to the 
potential decriminalization of the District of Columbia's 
marijuana possession laws. My name is Robert MacLean. I'm the 
acting chief of the United States Park Police. I'd like to 
submit the Department's full statement for the record and 
summarize those views here.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Mr. MacLean. The U.S. Park Police is one of the Nation's 
oldest uniformed Federal law enforcement agencies. The Park 
Police have enjoyed a long history of partnership with the 
citizens of the District of Columbia and cooperation with the 
Metropolitan Police Department. The Park Police is responsible 
for safety and crime prevention in all parklands administered 
by the National Park Service. In the District of Columbia, the 
Park Police have primary jurisdiction over Federal Parkland 
which comprises approximately 22 percent of the District of 
Columbia, including the National Mall, East and West Potomac 
Parks, Rock Creek Park, Anacostia Park, McPherson Square, and 
many of the small triangle parks.
    The Park Police is a law enforcement unit of the National 
Park Service within the Department of the Interior, and our 
jurisdiction is usually set by congressional legislation. 
Officers of the U.S. Park Police are authorized under Federal 
law to make arrests without warrant for any offense against the 
United States committed in their presence within areas of the 
national park system. Further, two additional acts of Congress 
provide that Park Police officers have the same powers and 
duties as the Metropolitan Police Department officers within 
the District of Columbia. Park Police enforcement is left to 
the sound discretion of the individual officer on the ground 
depending on the circumstances.
    If an individual is arrested for simple possession of 
marijuana by one of our officers within the District, the 
arrestee can be currently charged under D.C. Code. Under 
existing D.C. Law, simple possession of marijuana is a 
misdemeanor with a penalty of incarceration of up to 6 months 
and a fine of not more than $1,000. If the violation occurs on 
Federal Parkland, the arrestee can be charged under the 
National Park Service regulation at Title 36, CFR, resulting in 
a misdemeanor with a possible penalty of incarceration of up to 
6 months, and a fine of not more than $5,000.
    Finally, marijuana is a Schedule 1 controlled substance 
under Title 21, United States Code, the possession of which is 
a misdemeanor, and in the event of a conviction, the sentence 
is determined by the court.
    Between 2010 and 2012, approximately 55 percent of the Park 
Police arrests for marijuana charges in the Washington 
metropolitan area occurred on Federal Parkland within the 
District of Columbia. The majority of these arrests were for 
simple possession, with a few arrests for possession with 
intent to distribute. We understand the District of Columbia's 
Marijuana Possession Decriminalization Amendment Act of 2014 
would only amend District law and would not alter the National 
Park Service regulation or Federal law on marijuana. We also 
understand that the D.C. Act would still make is a misdemeanor 
to smoke marijuana in a public space or park.
    If the D.C. Act becomes law, then we will work closely with 
the United States Attorneys Office for the District of Columbia 
to determine our future enforcement options especially if the 
person is on Federal Parkland.
    Mr. Chairman, this concludes my statement. I will be 
pleased to respond to any questions you may have.
    Mr. Mica. Thank you, Mr. MacLean. We appreciate your 
testimony.
    [Prepared statement of Mr. MacLean follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. We will now turn to David O'Neil, the acting 
Assistant Attorney General of the Criminal Division of the 
United States Department of Justice. Welcome, sir, and you are 
recognized.


                  STATEMENT OF DAVID A. O'NEIL

    Mr. O'Neil. Thank you Chairman Mica and distinguished 
members of the subcommittee. I appreciate your invitation to 
testify on behalf of the U.S. Department of Justice. My 
testimony today will focus on our marijuana enforcement program 
nationwide and the guidance the Department has issued to all 
United States Attorneys regarding our program. As you know, the 
Controlled Substances Act of 1970 makes it a Federal crime to 
possess, grow or distribute marijuana. Financial transactions 
involving proceeds generated by marijuana-related conduct can 
also form the basis for Federal prosecution under money 
laundering statutes, the unlicensed money remitter statute, and 
the Bank Secrecy Act.
    Starting with California in 1996, several States have 
authorized the cultivation, distribution, possession, and use 
of marijuana for medical purposes under State law.
    In 2012, voters in Colorado and Washington approved 
initiatives legalizing marijuana use under State law and 
establishing State regulatory systems for marijuana use. In 
2010, the Council of the District of Columbia authorized use of 
marijuana for medical purposes, and following congressional 
review of that legislation, it became law in the District of 
Columbia. The Council has now enacted broader decriminalization 
legislation, which is currently under congressional review.
    The Administration will treat D.C. In the same manner as 
every other jurisdiction with respect to the enforcement of 
Federal marijuana laws. In the District of Columbia, the U.S. 
Attorney's Office will also continue to enforce drug offenses 
under the D.C. Code.
    For decades and across administrations, Federal law 
enforcement has targeted sophisticated drug traffickers and 
organizations, while State and local authorities generally have 
focused their enforcement efforts under their State laws on 
more localized drug activity. Since medical marijuana laws and 
decriminalization laws have been enacted, the Department of 
Justice has continued to work with its State and local partners 
to target dangerous drug trafficking organizations. At this 
point, more than ever, we will maintain strong partnerships and 
coordination among Federal and State and local law enforcement.
    On August 29, 2013, the Department issued a guidance 
memorandum to all United States Attorneys directing our 
prosecutors to continue to fully investigate and prosecute 
marijuana cases that implicate any one of eight Federal 
enforcement priorities. This memorandum applies to all of our 
Federal prosecutors, and it guides the exercise of 
prosecutorial discretion against individuals and organizations 
that violate any of our stated Federal interests, no matter 
where they live or what the laws in their State permit. Using 
our prosecutorial discretion, U.S. Attorneys' Offices have 
historically devoted resources to cases involving these eight 
Federal enforcement priorities and will continue to do so in 
the future. For example, we have targeted enforcement actions 
against marijuana businesses and residential grow sites near 
schools. We also actively investigate and prosecute cases 
involving international smuggling and interstate shipment of 
marijuana, marijuana grows where firearms and violence are 
involved, marijuana grows on public lands, and cases with 
potential organized crime involvement in marijuana businesses.
    In addition, in February 2014, the Department issued 
guidance to all Federal prosecutors regarding marijuana- 
related financial crimes. That guidance seeks to mitigate the 
public safety concerns created by high-volume cash-based 
businesses without access to banking and the financial system, 
while at the same time, ensuring that criminal organizations, 
gangs, and drug cartels do not have access to the financial 
system to launder criminal proceeds. The guidance states 
clearly that the provisions of the money laundering statute, 
the unlicensed money remitter statute, and the Bank Secrecy Act 
remain in effect with respect to marijuana-related conduct. The 
guidance advises Federal prosecutors to assess marijuana 
financial crimes under the eight Federal enforcement priorities 
laid out in the August 29th memorandum. The Department expects 
financial institutions to continue to apply appropriate risk-
based anti-money-laundering policies, procedures, and controls 
sufficient to address the risks posed by these customers. This 
includes conducting customer due diligence consistent with any 
guidance issued by FinCEN. The Department of Justice is 
committed to enforcing the Controlled Substances Act in all 
States and the District of Columbia, and we're grateful for the 
dedicated work of our Drug Enforcement Administration and 
Federal Bureau of Investigation agents, our Federal 
prosecutors, and our State and local partners in protecting our 
communities from the dangers of illegal drug trafficking. Our 
goal is to ensure that we are effectively focused on the eight 
Federal enforcement priorities outlined in the August 2013 and 
February 2014 guidance from the Department.
    Ultimately the achievement of that goal requires 
cooperation among law enforcement agencies at every level. I 
look forward to taking your questions.
    Mr. Mica. Thank you. And I appreciate your testimony.
    [Prepared statement of Mr. O'Neil follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. We'll go now to Ms. Sadanandan, and she is the 
Program Director at the American Civil Liberties Union here in 
the Nation's Capitol. Welcome, ma'am, and you're recognized.

                 STATEMENT OF SEEMA SADANANDAN

    Ms. Sadanandan. Chairman Mica, Ranking Member Connolly, and 
distinguished members of the subcommittee, thank you for this 
opportunity to address D.C.'s overwhelmingly popular decision 
to decriminalize small amounts of marijuana. My name is Seema 
Sadanandan, and I am the Program Director of the ACLU of the 
Nation's capitol.
    We work to protect civil liberties and civil rights in 
Washington, D.C., through public education, legislative 
advocacy and litigation. In 2013, the ACLU published a 
nationwide study of the widespread racial disparities in 
marijuana arrests from 2001 to 2010. The report documented 
arrest rates for marijuana possession by race for all 50 States 
and the District of Columbia. The ACLU of the Nation's Capitol 
soon thereafter issued a shadow report entitled Behind the D.C. 
Numbers, the War on Marijuana in Black and White, focusing on 
racial disparities in marijuana arrests here in the District.
    While the ACLU's nationwide study found black people to be 
3.7 times more likely to be arrested for marijuana possession 
than whites, in the District of Columbia, black people were a 
staggering eight times more likely, despite roughly equal usage 
rates among black and white populations.
    Ms. Sadanandan. These reports catalyzed several months of 
high profile public debate about police enforcement practices 
here in the District. There emerged a public consensus that the 
aggressive enforcement of marijuana possession did not make our 
communities any safer.
    In the face of increasing public pressure, in March 2014 
members of the D.C. Council passed by a margin of 10-1 the 
Marijuana Decriminalization Amendment Act of 2014. Prior to the 
passage of the act, adult possession of marijuana was a 
misdemeanor punishable by up to 6 months in jail or up to a 
$1,000 fine. The act of decriminalizing marijuana makes 
marijuana possession of one ounce or less a civil offense under 
D.C. law subject to a $25 fine. In passing this act, the 
District joined 11 other States which had already instituted 
similar legislation.
    In 2010, as you can see the graph here, black and white 
populations in the District were nearly equal, yet nearly 91 
percent of all arrests for marijuana-related offenses were of 
black people. In 2010 alone, 5,393 arrests for marijuana-
related offenses. Approximately three-quarters of those arrests 
were for marijuana possession.
    In 2010 law enforcement officers in the District of 
Columbia were making approximately 15 marijuana arrests per 
day. Usage rates do not explain this glaring racial disparity 
in the enforcement of the District's marijuana laws, 
particularly where time and time again studies have shown that 
black and white populations use marijuana at remarkably similar 
rates.
    This is a 2010 nationwide survey by the National Household 
Survey on Drug Abuse and Health. We have the 2001 and 2010 
surveys here which show that based on self-reported usage rates 
between black and white populations you have near equal rates. 
In addition, studies have consistently indicated that drug 
markets, like American society in general, reflect our Nation's 
racial and socioeconomic boundaries. For example, university 
students tend to sell to one another.
    Here we have a map of all the marijuana arrests in the 
District of Columbia. The yellow points indicate the arrests of 
black individuals and the blue points indicate arrests of white 
people. This map demonstrates that the vast majority of the 
arrests in the District of Columbia took place east of 16th 
Street. And for anyone who lives here in the District, you know 
that these are the neighborhoods where the overwhelming 
majority of black residents live and far from the four major 
universities that lie west of 16th Street.
    When faced with the question of what to do about these 
disparities, the council considered several key factors in 
support of marijuana reform. The cost of marijuana enforcement 
was a huge factor. The District spends more per capita on 
marijuana enforcement than any of the 50 States. By a 
conservative estimate, D.C. in 2010 spent approximately $26 
million on marijuana enforcement.
    Second, focusing valuable police time and resources on 
marijuana enforcement reduced police ability to respond to and 
solve more serious crime.
    And finally, saddling thousands of primarily black men in 
the District with convictions for marijuana possession year 
after year with negative consequences for employment, 
education, and housing did not serve the interests of public 
safety and had a corrosive effect on the relationship between 
police and the community.
    Based on these factors, the policy choice was clear: The 
council overwhelmingly decided to remove criminal penalties 
under D.C. law for marijuana possession.
    Before I close, I will briefly address the issue of Federal 
versus local marijuana enforcement. According to our data, 
which we obtained through a FOIA request from the Metropolitan 
Police Department, 93 percent of all marijuana arrests in 2010 
were made by the Metropolitan Police Department. Less than 3 
percent of all the arrests in the District of Columbia for 
marijuana-related offenses were made on Federal land. According 
to our estimates, approximately 99 percent of all arrests were 
made under the D.C. Code.
    Accordingly, we do not predict a significant tension 
between Federal and local marijuana enforcement in the wake of 
reform. We urge this committee to respect this local and widely 
supported measure to address racial disparities in marijuana 
enforcement in the District of Columbia.
    Thank you.
    [Prepared statement of Ms. Sadanandan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Mica. Well, thank each of our witnesses for their 
testimony and participation. Also, failed to say at the 
opening, thank you again. We have had to change the scheduling 
of this hearing at least twice, and yesterday, in deference to 
our departed Member, the late Mr. Jim Oberstar, Ms. Norton and 
I and many other members were at his funeral. So that is the 
reason, and I appreciate so much your complying.
    Let me start with some quick questions. I cited, in fact, 
Mr. O'Neil, that there are 26 Federal law enforcement agencies. 
You issued and you cited the August 29th, 2013, memo that the 
U.S. Attorneys wouldn't be going after some of the laws in 
these States, at least you wouldn't be going after as far as 
Federal prosecution some of the laws. You did cite eight 
exceptions, and the eighth one I have here, which I put in the 
record, was preventing marijuana possession or use on Federal 
property. Is that correct? Is that part of what was issued?
    Mr. O'Neil. Chairman Mica, I guess I would characterize the 
memo slightly differently. I think it was not an indication 
that we would not prosecute Federal marijuana laws except where 
those exceptions or where those areas are indicated. I think 
what I would say is that that memo indicated that those are the 
areas where we are going to focus our priorities. So we have 
instructed Federal prosecutors to focus on those areas.
    Mr. Mica. Right. And one would be preventing marijuana 
possession or use on Federal property.
    Mr. O'Neil. That is correct.
    Mr. Mica. That is correct.
    Mr. O'Neil. That is one of our priorities.
    Mr. Mica. In conflict to some comments that have been made 
about what the Department of Justice has said and what they 
would do.
    We have also looked, and we called in your U.S. Attorney 
from Colorado because that is one of two States that have--now, 
we have 20 States that have gone in for the medical marijuana, 
but we have the penalties basically eliminated for possession, 
I believe, in Colorado; the other one Washington. So we are not 
picking on the District, we are looking at the implications 
from Federal prosecution.
    Mr. MacLean, you cited, too, that you will be enforcing 
Federal law on Federal property. Is that correct?
    Mr. MacLean. That is correct, sir.
    Mr. Mica. As far as possession. Which are you going to 
enforce, the District law or Federal law on Federal property? 
If I have got this little old joint here, just possession, what 
are you going to do, and I am on Federal property, Park 
Service, and you told me all the area that you cover, what law 
are you going to enforce if this goes into effect in a few more 
weeks here?
    Mr. MacLean. The current law over National Park Service 
land in the District of Columbia is title 36 Code of Federal 
Regulations.
    Mr. Mica. So you will enforce the Federal law in conflict 
to the--in deference, too, to what the District has passed, 
right?
    Mr. MacLean. That is correct. We also have available to use 
the authority under----
    Mr. Mica. And you would prosecute that. I guess the 
prosecutorial agency would either be--well, the District has a 
different law, so it would end up in the Federal courts. Is 
that right?
    Mr. O'Neil. The U.S. Attorney's Office for the District of 
Columbia has authority in the District for prosecuting cases or 
offenses under the D.C. Code. And so to the extent an arrest 
was made under the D.C. Code, that would be prosecuted in 
Superior Court. To the extent a case was brought to us in 
violation of Federal law, then, yes, that would be prosecuted 
in Federal District Court.
    Mr. Mica. And MacLean just testified 55--was it 55 percent 
of your--give us exactly, I don't want to change the words, but 
the marijuana possession were 55 percent of offenses, or what 
was that number?
    Mr. MacLean. Of the specific year, 55 percent of the 
arrests made for marijuana possession by the United States Park 
Police occurred on Federal parkland.
    Mr. Mica. On Federal parkland.
    Mr. MacLean. Correct.
    Mr. Mica. So we could have an increased number, given the 
disparity.
    I am not here to negate the District law. We are here to 
review what the District passed, and there have been precedents 
for that, and I am not here to just review its implications in 
the District. We have at least two States, and we have had one 
hearing on one of the States and the U.S. Attorney, to see how 
this would be administered and executed under the law.
    So, again, and I have already put this in the record, we 
would have Federal prosecution. It would be at a higher. But we 
still have the issue, and I think you brought it up, Chief 
Newsham, of this being a Schedule I Federal narcotic, too, even 
though the District has again reduced the penalty, and you have 
jurisdiction on all of the non-Federal land. So you would 
prosecute it under the new statute. Is that correct?
    Mr. Newsham. Yes, that is correct.
    Mr. Mica. Okay. Well, again, it isn't a purely local 
matter, particularly given the relationship between the 
District of Columbia. And, again, it is a unique status in the 
scheme of political and enforcement jurisdictions.
    There is no question there is disparity in the prosecution 
when it comes to blacks. Our prisons probably, I don't know the 
current number, but probably half the population of the 
prisons, State and local jails, are filled with African 
Americans. The number of people in jail for various penalties, 
there is probably a larger population of African Americans in 
jail and prosecuted for a whole host of crimes. And that is 
wrong, and in many cases it is wrong that they find themselves 
in that situation in the beginning. But I am not certain that 
again changing the penalty in the District of Columbia is going 
to benefit that population that much.
    Unfortunately, marijuana, Ms. Sadanandan, becomes a gateway 
narcotic, and that is what we had testify the Office of 
National Drug Control Policy Director under the--the Deputy 
Director--under the President of the United States, who brought 
up some of this topic by comparing the use of marijuana 
equivalent to alcohol. So, again, it is not a question, but a 
response to some of your comments, there are inequities that 
need to be resolved.
    I appreciate each of you coming. We are trying to sort 
through this, its implications. I don't know what the 
administration will do on the categorization. Do you have any 
recommendation, Mr. O'Neil? Probably not.
    Mr. O'Neil. In terms of scheduling of marijuana?
    Mr. Mica. Yes.
    Mr. O'Neil. No. There is a process for considering that 
which would begin with a petition to the DEA, which then would 
be referred to the Department of Health and Human Services for 
a study and a recommendation.
    Mr. Mica. And we plan to bring in people from the 
scientific area to see what is out there and again review that 
whole process. And right now with the laws changing, as you 
testified to, and we all see across the land, we need to see 
where we are going with this.
    I thank both of you, you are both law enforcement officers, 
for the job you are doing, and I hope you see the problems that 
we are trying to sort through as a committee.
    Ms. Norton. I am going to try to stick to the 5, Ms. 
Norton, because we do have 5 votes scheduled soon.
    Ms. Norton. Thank you, Mr. Chairman. Just to clarify, Mr. 
Chairman, on parkland and Federal property, nothing I said was 
meant, and I heard nothing that said that Federal law would be 
any different on Federal property, Federal Park Service 
property, Federal buildings. I joked about how you wouldn't be 
arrested here.
    Mr. Mica. Even up here.
    Ms. Norton. Yeah. This is Federal property. You may be in 
some jeopardy up here, Mr. Chairman.
    But what I was pointing out is that parkland and Federal 
property is to be treated the same way here as in other parts 
of the United States. Isn't that true Mr. MacLean and Mr. 
O'Neil?
    Mr. O'Neil. That is correct.
    Mr. MacLean. Yes, ma'am.
    Ms. Norton. I mentioned when the chairman pointed out 20 
percent of the land was Federal parkland or Federal property 
that there were any number of States--staff has given me some 
of them, Nevada, Utah, Alaska--where the entire State virtually 
is owned by the Federal Government. Does that create any 
particular difficulty with respect to the--for example, in 
Alaska where they have decriminalized marijuana, has the fact 
that so much of Alaska is Federal land created any particular 
difficulties enforcing Federal law on Federal land.
    Mr. O'Neil?
    Mr. O'Neil. I am not aware of any particular difficulty 
arising from the high percentage of Federal land in a State 
like Alaska. As you pointed out, we are going to approach 
marijuana enforcement in the District of Columbia just as we do 
in States like Colorado, Washington, and other jurisdictions 
that have chosen to amend their laws in this way.
    Ms. Norton. I just want to note for the record that the 
Federal Government owns 81 percent of the land in Nevada, 66 
percent in Utah, and 61 percent in Alaska.
    Mr. Newsham, does the District's marijuana bill change D.C. 
law regarding the sale and distribution of marijuana or intent 
to distribute marijuana?
    Mr. Newsham. That would still be an arrestable offense.
    Ms. Norton. What about notification of parents and 
guardians if you find marijuana in the hands of a youth?
    Mr. Newsham. The youth would be issued, for less than an 
ounce, would be issued a notice of violation. And then again 
with regards to distribution it would be an arrestable offense 
and parents would be notified.
    Ms. Norton. Ms. Sadanandan, you noted that where there are 
a great many young people, because this is a college town, west 
of 16th Street there are almost no arrests, but there are in 
that map that showed high numbers in many areas where African 
Americans live. Why do you think? How come there are so many 
arrests for mere possession there? How do they come about?
    Ms. Sadanandan. Well, the study that we did was a 
descriptive study, so we looked purely at sort of the arrest 
data. But based on anecdotal evidence there are a number of 
different reasons that have to do with the way in which 
marijuana enforcement is prioritized by various law enforcement 
agencies. And I think that you can look, even with the number 
of various law enforcement agencies here in the District, you 
see more than 93 percent of the arrests are happening through 
the Metropolitan Police Department.
    Ms. Norton. Are these youngsters or people, whatever their 
age, picked up, do you think, because of the smell or odor of 
marijuana?
    Ms. Sadanandan. According to reports from young people in 
the District, it was under the alleged smell of marijuana that 
they were being singled out for stops and searches. But what we 
found in our data is that the majority of people who were 
actually arrested were not young people at all. In fact, 
juveniles made up less than 4 percent of actual arrests for any 
type of marijuana.
    Ms. Norton. I don't mean juveniles, Ms. Sadanandan. I mean 
young people.
    Ms. Sadanandan. Yeah, absolutely. So the pretext of odor 
was definitely being used, according to anecdotal evidence, to 
stop and initiate contact.
    Ms. Norton. What is the reason for the low fine?
    Ms. Sadanandan. The reason for the low fine is because the 
majority of the areas of the District where people were being 
arrested are areas with high rates of low-income individuals, 
and the implication for a $25 fine is very different for a 
person who is living at or below the poverty line than, say, 
for example, a person who is middle class or upper middle 
class. And so the $25 fine is more likely based on the arrest 
patterns we see now to be levied against someone of low income. 
And so we wanted a fine that was a deterrent for engaging in 
possession, but it was also manageable and realistic and didn't 
saddle someone with an additional burden which would be 
unrealistic for them to actually pay.
    Ms. Norton. Thank you.
    And thank you, Mr. Chairman.
    Mr. Mica. Thank the gentlelady.
    Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    I find the racial disparity aspect of the enforcement and 
prosecution of these laws very disturbing, but it does strike 
me that the answer might not be just to ignore the law when we 
find a problem like this.
    Ms. Sadanandan, did you find racial disparity in 
distribution crimes as well as possession, or have you looked 
at that?
    Ms. Sadanandan. Our report didn't look specifically at 
distribution, but what I can say is this. Based on just a 
survey, a general survey of the number of, for example, 
distribution crimes in an area like District Seven of the 
Metropolitan Police Department, which is a largely African 
American section of the District versus District Two, we did 
find that in District Seven, for example, there were 276 
arrests for distribution in a given year. In District Two there 
were approximately between 20 and 30 arrests. Yet the yield for 
marijuana was much, much higher in District Two than in 
District Seven.
    Mr. Massie. What I am trying to find out is do you 
anticipate--so there are still going to be arrests for intent 
to distribute, that really hasn't changed in the D.C. law--do 
you anticipate a racial disparity continuing in the enforcement 
of this law?
    Ms. Sadanandan. We anticipate that there will be less 
arrests, but, yes, the disparity will continue. It just won't 
continue on the scale that we are seeing now.
    Mr. Massie. Mr. Newsham, two of the witnesses have 
testified that there is a racial disparity in the application 
of this law. In your opinion, why are blacks arrested at a 
higher rate than whites for marijuana and what are you doing 
about that? I mean, it is not up to you to set the laws, but 
the enforcement of it is. What can you do and what have you 
done to address that disparity?
    Mr. Newsham. I don't know if I heard folks say that it was 
the enforcement of the law that was causing the disparity. I 
think that when you take a look at something like this, if you 
are looking at race for a particular crime where arrests are 
being made, I think other factors have to be considered before 
you draw any conclusions as to what the cause is. One of the 
things that we looked at as a department, because we're very 
sensitive to the allegation that laws are being biasedly 
enforced, obviously----
    Mr. Massie. Understood. So I wanted to give you a chance to 
answer that.
    Mr. Newsham. Yeah. So we looked at calls for service. And 
if you talk about that study where they talked about two 
separate areas of the city, we call them patrol service areas, 
one was in the Second District and one was in the Seventh 
District, and this just is one of the things that we saw, is 
that in PSA 204, which is in the Second District, which is a 
predominantly white neighborhood, there were 12 drug calls for 
service and we had 12 marijuana arrests. Then in PSA, I believe 
it was 602, which is in Anacostia, which is a predominantly 
black neighborhood, we had 518 calls for service and we had 249 
marijuana arrests.
    So the calls for service are drawing the police to these 
areas, and the calls for service are the community. It is the 
community that calls the police to come and take enforcement 
action. So I guess I say all that to say is I don't want 
anybody here to leave with the impression that the Metropolitan 
Police Department or any law enforcement agency in the city 
is--it is law enforcement tactics that are causing that. I 
think we need to take a closer look at the causes.
    Mr. Massie. Thank you.
    Mr. O'Neil, who determines the prosecution priorities at 
the Department of Justice?
    Mr. O'Neil. Ultimately the Attorney General and the Deputy 
Attorney General, and then in each of the districts----
    Mr. Massie. So it is the Attorney General, Eric Holder, who 
determines ultimately the priorities?
    Mr. O'Neil. Yes, the Attorney General, though as I said in 
any particular district the U.S. Attorney also has discretion 
about how to enforce the law based on the particular 
circumstances of that area.
    Mr. Massie. So have you had any directive. I heard you say 
earlier that you would enforce the laws in D.C. on Federal 
property the same way you would in Colorado or Washington, but 
are you going to be any more or less diligent about prosecuting 
arrests on Federal property in States that have more lenient 
marijuana laws than in other States?
    Mr. O'Neil. No. We are going to approach it--that was 
really the point of the August 2013 guidance, is that this is 
the enforcement priorities of the Department across the entire 
country regardless of what the State law is.
    Mr. Massie. So there would be no deference to State law on 
Federal property in those States?
    Mr. O'Neil. I think our enforcement of marijuana laws on 
Federal property will be the same regardless of what the 
applicable State law is.
    Mr. Mica. Thank the gentleman.
    Mr. Massie. Thank you.
    Mr. Mica. I need to recognize Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    Mr. O'Neil, tomorrow, May 10th, will mark 1 year since Lois 
Lerner went to a bar association here in town and disclosed 
that the Internal Revenue Service was targeting conservative 
groups. Four days later the Attorney General announced, after 
saying that this activity was outrageous and unacceptable, 
announced that there would be a criminal investigation.
    A month into that investigation we had then FBI Director 
Mueller in front of the committee. He was asked three 
questions: Who is the lead agent on the investigation? How many 
agents have you assigned? And have you interviewed any of the 
victims groups? Mr. Mueller's responses to those questions were 
I don't know, I don't know, I don't know. But what he also said 
was I will get back with you, implying that we were able to--we 
should in fact know some of that basic information.
    So I would like to know a couple things. We know Ms. 
Bosserman is involved. She has interviewed many of the 
witnesses because those same witnesses we have interviewed and 
they told us she has been interviewing them. She is in the 
Civil Rights Division. But the Attorney General has told us the 
Public Integrity Section is involved, too. Is that accurate?
    Mr. O'Neil. Both the Civil Rights Division and the Criminal 
Division of the Department of Justice are involved, as are 
career agents at the Federal Bureau of Investigation and the 
Treasury Inspector General.
    Mr. Jordan. Can you tell me some of the basic information 
about the questions I asked Mr. Mueller almost a year ago? Who 
in fact is the lead agent on this investigation?
    Mr. O'Neil. I am sure that we can provide that information 
to you.
    Mr. Jordan. Well, we have asked you seven times. We have 
sent seven different inquiries to the Department of Justice and 
each time they can't tell us anything. They just say it is an 
ongoing investigation.
    Now, Mr. Mueller didn't say that. He told us he would get 
back with us and give us the information.
    Now, Mr. O'Neil, you're Acting Assistant AG for the 
Criminal Division, so you manage the Public Integrity Section?
    Mr. O'Neil. I oversee the Public Integrity Section.
    Mr. Jordan. Are you involved in the investigation of 
targeting of conservative groups by the Internal Revenue 
Service?
    Mr. O'Neil. I would disagree with the characterization. I 
don't----
    Mr. Jordan. Are you involved?
    Mr. O'Neil. Am I involved in the investigation?
    Mr. Jordan. The investigation.
    Mr. O'Neil. I oversee the Public Integrity Section, so, 
yes.
    Mr. Jordan. Do you know an attorney named J.P. Cooney?
    Mr. O'Neil. I am not familiar with that name.
    Mr. Jordan. Mr. Cooney is in the Public Integrity Section. 
We understand he is involved in the investigation. Do you know 
if he is lead agent?
    Mr. O'Neil. As I said, I am not familiar with the names.
    Mr. Jordan. Can you tell me who is leading the 
investigation? There has got to be someone in charge. Who is 
the point person on the investigation in the targeting of the 
Internal Revenue Service of conservative groups?
    Mr. O'Neil. Congressman, obviously this is far afield of 
the subject of the hearing that we are----
    Mr. Jordan. But you oversee the Public Integrity Section, 
the Criminal Division that is involved. I just want to know 
who--you don't know who--this is one of the biggest cases you 
got. You don't know who is leading the investigation?
    Mr. O'Neil. There are numerous career Federal prosecutors 
that are on that investigation.
    Mr. Jordan. Can you tell me how many? I have been trying to 
get this answer now for 11 months.
    Mr. O'Neil. How many prosecutors in total? I can't tell you 
that answer sitting here today.
    Mr. Jordan. Is this an important case for the Justice 
Department, finding out how people's First Amendment rights 
were violated and they were targeted by the Internal Revenue 
Service. Is this an important case?
    Mr. O'Neil. Again, I would disagree with the 
characterization of the investigation. But, yes, this is an 
important case to the Department.
    Mr. Jordan. And you don't know how many agents are 
involved. You don't even know how many agents are involved from 
your division?
    Mr. O'Neil. Well, agents would be involved from the Federal 
Bureau of Investigation----
    Mr. Jordan. How many attorneys from your division?
    Mr. O'Neil. I can't give you a precise number.
    Mr. Jordan. Let me ask you this.
    Mr. O'Neil. I don't want to give you a precise number and 
have that be incorrect.
    Mr. Jordan. Let me ask you this. This week, earlier this 
week, in a bipartisan majority, 26 Democrats joined 
Republicans, joined every single Republican, 26 Democrats said 
that we should have a special counsel take over this 
investigation. So 26 Democrats joined with us saying things 
like this, ``The statements and actions of the IRS and the 
Department of Justice and the Obama administration in 
connection with the matter have served to undermine the 
Department of Justice investigation.'' That was part of the 
resolution. Twenty-six Democrats agreed with that quote.
    Do you think we need a special counsel to take over this 
investigation, that no one seems to know how many agents are 
involved, how many attorneys are involved, no one can tell me 
who is leading it. FBI Director Mueller couldn't tell me, you 
can't tell me, even the people, the number involved from your 
division. Do you think we need a special counsel? Do you agree 
with the 26 Democrats who agreed with us with that resolution?
    Mr. O'Neil. You know, I think that the Attorney General, 
the Deputy Attorney General, and others in the Department have 
answered that question. I think the answer is that, no, a 
special counsel is not warranted.
    Mr. Jordan. So you not going to recommend a special 
counsel?
    Mr. O'Neil. No.
    Mr. Jordan. You don't think the Attorney General is going 
to even consider that question at all, even though 26 
Democrats, a bipartisan majority in the House of 
Representatives said what is going on at the Justice 
Department, it is not the kind of investigation we want, we 
think it is time for a special prosecutor?
    Mr. O'Neil. Again, I think that that suggestion has been 
made and I think that the leadership----
    Mr. Jordan. It wasn't a suggestion. It wasn't a suggestion. 
It was a vote of the United States House of Representatives 
with 26 Democrats joining Republicans saying what is going on 
in the Justice Department is not a real investigation. When the 
person leading the investigation, Barbara Bosserman, gave 
$6,750 to the President's campaign and the Democrat National 
Committee, even 26 Democrats agree something else has to 
happen, someone else should be in charge.
    Mr. O'Neil. Again, Congressman, I think that the 
prosecution here is being led and managed by career prosecutors 
in the Criminal Division, the Civil Rights Division, with 
assistance from career agents in the FBI and the Treasury 
Inspector General.
    Mr. Jordan. I hope, Mr. Chairman----
    Mr. O'Neil. And I think the Attorney General and the 
Department have confidence----
    Mr. Jordan. Mr. Chairman, I hope the Attorney General will 
listen to what 26 fellow Democrats in the United States House 
of Representatives had to say earlier this week when they voted 
and said we need a special counsel.
    Mr. Mica. Thank the gentleman.
    Here is what is going to happen. We have less than a minute 
now remaining in a vote. So I am going to recess the hearing 
until 12:15. We will try to conclude it by about 12:30, 12:35. 
We have at least a few more questions to be asked, though.
    The subcommittee will stand in recess to 12:15.
    [Recess.]
    Mr. Mica. I will call the subcommittee back to order. Thank 
everyone for their indulgence, a couple minutes over, and once 
again, appreciate your patience in accommodating the 
subcommittee. We have at least one more member who wanted to 
ask questions, and we want to give everyone time to ask those 
questions.
    In the meantime, one of the questions that I would pose as 
we wait for the other members is, looking at the effective 
penalties relating to marijuana that lead to an increased rate 
of drugged driving, it is my understanding we don't really have 
a standard, and this is something I am going to look at 
nationally, to determine the level of narcotic in the 
bloodstream. And I think also that marijuana can be detected in 
the bloodstream for some time after its use, but the whole 
question of driving impaired is raised.
    Do you see any--this is to Chief Newsham, do you see any 
problem with increased use of marijuana, again, with the 
lowering of the penalties and also the inability to come up 
with a test that would indicate the level of intoxication by 
marijuana?
    Mr. Newsham. I don't think--I guess we are going to assume 
that there is going to be an increase in use based on the 
decriminalization. I guess there is not going to be any change 
in the way that we currently enforce people who are driving 
under the influence of either alcohol or----
    Mr. Mica. But we don't have--we don't have a test that is 
administered and we have no standard nationally or within the 
District for the amount of marijuana that is tolerated, do we?
    Mr. Newsham. No. The way that a driver would be tested on 
the scene for law enforcement purposes would they would be 
given a road test as to their ability to perform certain 
functions, and if they are unable to perform those functions, 
there is going to be an assumption they are impaired.
    Mr. Mica. You do blood tests though, too?
    Mr. Newsham. We can do blood tests if necessary.
    Mr. Mica. Okay. Well, that is another question probably for 
another hearing, because we see that issue across the United 
States as far as enforcement.
    Let me yield now, if I may, to Dr. Fleming.
    Mr. Fleming. Well, once again, thank you, Mr. Chairman. And 
I want to welcome our panel here today.
    First of all, it seems, in listening to your testimony 
today, the justification for decriminalizing marijuana is made 
on the basis of racial disparity. That is the only real 
argument I heard. So I would like to ask our two police 
professionals here today, can you give me just a rough estimate 
of the white versus non-white numbers among your officers in 
the field, the ones who would actually make arrests? Both of 
you, if you could have any--just a range would be fine.
    Mr. Newsham. I am not sure you are--how many--what is the--
--
    Mr. Fleming. Your police officers who are in the field who 
would be the ones making arrests.
    Mr. Newsham. About 60 percent of the Metropolitan Police 
Department is African American.
    Mr. Fleming. Okay. So the majority of the officers making 
the arrests are African American.
    Mr. Newsham. In the District of Columbia.
    Mr. Fleming. In the District of Columbia.
    Mr. Newsham. For our department, yes.
    Mr. Fleming. Right. Mr. MacLean, how about you?
    Mr. MacLean. So I don't have an approximate number on the 
breakdown by race.
    Mr. Fleming. Okay. You would say it was evenly balanced, 
perhaps, that there is certainly--you are well represented by 
both African American and white police officers?
    Mr. MacLean. Correct. Well, we have geographic 
responsibility in D.C., New York City and in San Francisco, and 
we have a very diverse workforce.
    Mr. Fleming. Okay. So one would--if you accept these 
numbers of 1-4 or 1-8 ratios, I don't doubt those as overall 
numbers, but the implication one infers from that, Ms. 
Sadanandan, is that the police officers are actually racially 
biased. So how do you explain that in the case of D.C., you 
have a majority of officers who are actually African American? 
Certainly you don't think that they are racially biased against 
their own race?
    Ms. Sadanandan. I think that is an excellent question. And 
I think that what we are really seeing is the phenomenon of 
community-based profiling, that certain communities are treated 
and policed in a certain kind of way, and those same strategies 
and tactics aren't necessarily applied in other communities.
    And with regards to drug law enforcement, I can give you a 
specific example. One of the reports that we heard from across 
African American communities had to do with drug interdiction 
units, otherwise known as the jump-out car, the police officers 
riding up on pedestrian and jumping out to stop and search 
them, in which people consented to searches, which sometimes 
revealed small amounts of marijuana.
    Mr. Fleming. But you would concede that it is not a racial 
bias, that this is not--because, again, you have got the same 
African American officers who are actually arresting African-
Americans. It sounds like what you are saying is that certain 
communities have a higher density of police officers or police 
enforcement.
    Ms. Sadanandan. No, I wouldn't concede that it is not a 
racial bias. I don't think that the race of the police officer 
necessarily determines whether or not there is an institutional 
bias in which communities on the basis of race are policed. I 
don't think that just because a police officer is black, that 
that police officer doesn't carry implicit bias that is carried 
throughout our society through--across all races due to a 
number of different factors, which we don't have to get into 
here today.
    Mr. Fleming. Okay. Well, let me shift a little bit here. So 
what about other crimes, grand theft auto, murder? Do you think 
that we should reduce enforcement or penalties, because there 
are also found to be racial disparities there. Would you would 
also recommend that we reduce, or perhaps even not sentence 
someone who has committed murder to prison simply because there 
is a potential racial bias?
    Ms. Sadanandan. I think that what we can say with certainty 
about marijuana is that the criminalization of marijuana has 
not had an impact on either the----
    Mr. Fleming. Well, I--but that is not--that is an answer to 
a different question. My question is what about other crimes? 
Would you diminish those sentences and enforcement based on 
racial disparity?
    Ms. Sadanandan. Well, I think we definitely need to look at 
whether or not our criminal justice approach to public safety 
issues is, in fact, making us safer. And when we measure the 
efficacy of those approaches, we need to look at more than just 
how many people we arrest. We need to look at whether or not 
communities----
    Mr. Fleming. But just yes or no. Do you think we should 
diminish enforcement and penalties for those other crimes that 
are far more serious that may have racial disparities?
    Ms. Sadanandan. Well, I think that if there are racial 
disparities and the approach to criminal justice is found not 
to be effective, then we should seriously consider examining 
the types of sentences and approaches that we take to dealing 
with those public safety issues.
    Mr. Fleming. Okay. So I will take that as sort of a yes.
    Well, again back to our police officers, do you agree that 
perhaps there is some racial bias or bigotry perhaps that leads 
to these rates of arrests that seem to be disparate?
    Mr. Newsham. I mean, I would hope that people wouldn't draw 
that conclusion based on an analysis that is just based on race 
alone. I think you have to look at other factors that may be 
causing that, and I brought up one of the factors that we have 
considered, which are calls for service where the community 
calls the police to a particular area. So if there are more 
police in the area, there are likely to be more arrests.
    So I think that, you know, it is something--it is 
definitely an issue that needs to be looked at. I think it 
needs to be looked at carefully. I have worked on the 
Metropolitan Police Department for almost 25 years. The folks 
that I work with in that agency would, you know, obviously be 
very upset to hear that they are being accused of a biased 
enforcement, and that is one of the things that we work very 
hard to prevent.
    Mr. Fleming. Sure. And again to reiterate a statement you 
have made twice, you are saying that you are not affirmatively 
going into communities seeking out criminals. You are getting 
calls, you are getting a higher density, a higher frequency of 
calls, and obviously your officers are responding to those 
calls and certainly responding and reacting to the laws that 
are in force.
    Mr. Newsham. That is--that is one of the factors, I think, 
that needs to be looked at.
    Mr. Fleming. Right. One thing that I might also suggest in 
this is a drug counselor told me back in the 1980s that if you 
see a pure alcoholic, take a picture, because that is probably 
the last one you will see.
    Now, what he meant by that was that nowadays when it comes 
to chemical addiction, it is a poly-pharmacy issue, that you 
rarely see someone use just marijuana if they have an addiction 
problem. I am not suggesting everyone that uses marijuana uses 
other drugs. What I am saying is that those who do use drugs 
frequently, those who are addicted to drugs oftentimes use many 
different drugs, and so it certainly would seem to me, and I 
would love to get your response to this, that while you may 
find marijuana on the person of that individual, that person 
could have been using other drugs to which it could have 
created a behavior that generated that call to service.
    Mr. Newsham. I mean, I think I would respond like this, is 
that, you know, we--on the Metropolitan Police Department, we 
enforce the laws that are in place, the local laws that are in 
place, and, you know, to suggest that, you know, a person's 
using one drug or another is really not what we do. We enforce 
the laws that are in place. And I don't think anyone has said 
that there isn't going to be a consequence for marijuana 
possession in the District of Columbia; it is just the 
consequence has changed. It has changed from a notice of 
violation for less than an ounce from an arrest situation. So I 
think the enforcement is still there. I think there is still--
at least the laws want there to be enforcement, enforcement 
action, and we are going to continue to enforce those laws.
    Mr. Fleming. Right. I yield back, Mr. Chairman.
    Mr. Mica. Thank the gentleman.
    Ms. Norton, did you have additional questions?
    Ms. Norton. Just to clarify, because that was, I think, an 
informative answer that you gave, Mr. Newsham, this time and 
before about high crime areas. We call them high crime areas. 
You said we receive a large number of calls. And here is where 
I want to speak about the consequence of the law. You receive a 
large number of calls before this law was passed, and marijuana 
possession is, in fact, against the law, and you have reason to 
believe a person is in possession of marijuana. Then whether 
you are a black or a white policeman or Hispanic or an Asian 
policeman, you will, in fact, enforce the law, because 
possession of marijuana in the District of Columbia is against 
the law. So--yes. I am----
    Mr. Newsham. Yeah. I agree. I am shaking my head. I agree, 
yes.
    Ms. Norton. Yes. So African American policemen would not be 
inclined to give a pass to African Americans if this was the 
law of the land, because they enforce the law in the same way 
that our white officers do. Would that not be the case?
    Mr. Newsham. I think that is accurate.
    Ms. Norton. So if the law changes and you get the same 
number of calls, particularly in areas where there may be more 
crime than others, and the officer believes that someone may 
possess marijuana, that same officer, black or white, will act 
the opposite of how he acts today when marijuana 
decriminalization--when marijuana possession is against the 
law?
    Mr. Newsham. I think the action will be different. I don't 
know if it is necessarily opposite.
    Ms. Norton. Well, how would he behave today? For example--
--
    Mr. Newsham. He would issue a notice of violation as 
opposed to making an arrest. That is--so there is still an 
enforcement action that will be taken.
    Ms. Norton. Yes. The person still is subject to a----
    Mr. Newsham. A fine.
    Ms. Norton. --a fine. He does not get a record. The 
council's bill says that the odor of marijuana, the smell of 
marijuana is not enough. Do you believe, therefore, for mere 
possession of marijuana, there would be a decrease in the 
number of people arrested?
    Mr. Newsham. There will certainly be a decrease in arrests, 
but if you are talking about situations where enforcement 
action is taken, there----
    Ms. Norton. Well, for mere possession of marijuana.
    Mr. Newsham. Right.
    Ms. Norton. In other words, these were people arrested for 
possession only. Now, I can understand you are being arrested 
and you are being--you are looking for a number of different 
offenses, but where the officer suspects that the person 
possesses marijuana only.
    Mr. Newsham. Yeah. The arrests most definitely will 
decrease, absolutely. Enforcement----
    Ms. Norton. And how about----
    Mr. Newsham. I think enforcement action, whether 
enforcement action will be taken, it is hard to say.
    Ms. Norton. Yeah. Because there is some enforcement action 
that is still possible.
    Mr. Newsham. It is a civil----
    Ms. Norton. For example, the--and it would--I suspect it 
would be more likely if the person were smoking openly the 
marijuana. In that case, I would expect enforcement action to 
be taken. Is that not the case?
    Mr. Newsham. There will be, yes. Smoking marijuana in 
public will--there will still be an arrest.
    Ms. Norton. And I would expect that our African American 
police officers would be as likely to arrest for smoking 
marijuana openly as our white officers or officers of other 
backgrounds.
    Mr. Newsham. I think that is fair to say, yes.
    Ms. Norton. Thank you very much. That is all, Mr. Chairman.
    Mr. Mica. Well, thank you. And I want to thank each of our 
witnesses for appearing today and for their testimony and 
participation. As we sort through some of these issues, we are 
seeking answers. No decision has been made yet whether Congress 
will contest or overturn--or attempt to overturn the District 
law that has been passed.
    It is very clearly our responsibility, one under the 
Constitution, one under the creation of the District Act in 
1790, one under the Home Rule Act of 1973 that gave us 
specifically 60 legislative days to review these laws. Now, 
that may not be that common that this is done, but this 
particular change in law does, as we have heard, affect, again, 
a number, in fact, 26 Federal agencies in the District of 
Columbia that are charged with the responsibility of law 
enforcement. There are other factors, and we are trying to sort 
through the position of the administration and the U.S. 
attorney and others who will help determine policy.
    We will continue this series. In our next hearing, as I 
said, we will look at some of the other implications as far as 
changing the status of this particular level of narcotic, which 
is now a Schedule I narcotic, which has been pointed out again 
in this hearing, some of the contradictions between policies as 
enumerated or possible changes in policy as enumerated by the 
President, conflicting statements by the Drug Enforcement 
Agency, the Office of National Drug Policy, ONDCP, the office 
under the President of the United States.
    So it is an important issue, it is a change in society's 
perception of the use and abuse of a narcotic, and we will sort 
through this in an organized and focused manner and everyone 
will have an opportunity to participate.
    I thank the gentlelady from the District for coming to 
participate both as a witness and also from the dais today.
    Without objection, the record will be left open for 10 days 
for additional statements or questions that may be posed to the 
witnesses who are here today.
    Again, I thank our witnesses.
    And there being no further business before this 
subcommittee, this hearing is adjourned. Thank you.
    [Whereupon, at 12:43 p.m., the subcommittee was adjourned.]




                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
